\r-f

i

No.

filed
JUN 16 2021

IN THE
SUPREME COURT OF THE UNITED STATES

DANIEL LITTLEPAGE

— PETITIONER

(Your Name)

vs.
STATE OF OHIO

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

DANIEL LITTLEPAGE
(Your Name)
P.O. BOX 5500
(Address)
CHILLICOTHE, OHIO 45601
(City, State, Zip Code)
N/A
(Phone Number)

QUESTIONS PRESENTED
1. Is the Petitioner's Due Process Rights Violated Due to the
Violation of O.R.C.’ 2945.06 requiring a Three-Judge Panel
for Aggravated Murder?
2. Is the Petitioner's Due Process Rights Violated Due to the
Violation of Crim.R. 11(C)(3), requiring a Three-Judge Panel
for Aggravated Murder?
3. Is Due Process Violated when the Court accepts a "Guilty" Plea
before explaining Crim.R. 11, especially Crim.R. 11(C)(3) for
Aggravated Murder as required?
4. Is Due Process and Q.R.C. 2967.28 Violated by Imposing PostRelease Control (PRC) in a Aggravated Murder Case for which
Parole is the only eligibility for Petitioner?
3. Is Due Process Violated when the Trial Court Fails to inform
the Petitioner of the Elements of the Charge and Specification
to which he pleads to in an Aggravated Murder Case?
6. Is a Plea Knowingly and Intelligently made when the Trial
Court Fails to inform the Petitioner of the Elements of the
Charge and Specifications in a Aggravated Murder Case?
7. Is a Plea Knowingly and Intelligently made when the Trial
Court Imposes Two (2) conflicting sentencing sanctions, (PRC)
and Parole in a Aggravated Murder Case? (A Due Process Vio­
lation)
g.IIs the Petitioner Entitled to Plead Anew when the Trial Court
Imposes sentencing sanctions that are contrary to law in an
Aggravated Murder Case? (A Due Process Violation)
9. Is Due Process Violated when Petitioner At Sentencing States
that he Wants to Withdraw his "Guilty” Plea and it is left
Out of the Unsigned Sentencing Transcripts?

10. Is the Petitioner Entitled to Plead Anew when the Sentencing
Transcripts have been Altered and are Unsigned as required?
(See Page 25 of Trial Transcripts Labeled Appendix G_ Herein)
11. Does the Criminal Behavior of a Trial Judge who Executes
Fraudulent Orders (See Appendix I) Herein) Prove Bias, Par­
tiality and Corruption?
12. Does the Illegal Creation and Execution of Appendix I) Here­
in Violate 28 U.S.C. 47 and Due Process?
13. Does a Judge lose their Immunity when they Craete Fraudulent
Orders with N£ Authority or Jurisdiction? (See Appendix I)
Herein)
14. Once 28 U.S.C. 47 is Violated as is Proven in Appendix D Here
in, is the Judge Guilty of "Using Sham Legal Process" A Vio­
lation of O.R.C. 2921.52?
15. Once 28 U.S.C. 47 is Violated as is Proven in Appendix D Here
in, is the Judge Guilty of "Impersonating" A Violation of
O.R.C. 2921.51?
16. Once 28 U.S.C. 47 is Violated as is Proven in Appendix D Here'
ia> is the Judge Guilty of "Falsification" A Violation of
O.R.C. 2921.13?
17. Once 28 U.S.C. 47 is Violated as is Proven in Appendix D Here
in, is the Judge Guilty of "Forgery" A Violation of O.R.C.
2913.31?
18. Once 28 U.S.C. 47 is Violated as is Proven in Appendix D Here
is the Judge Guilty of "Identity Fraud" A Violation of

m,

O.R.C. 2913.47?
19. Once 28 U.S.C. 47 is Violated as is Proven in Appendix D Here
in, is the Judge Guilty of "Conspiracy" A Violation of O.R.C.
2923.01?
2

20. Once 28 U.S.C. 47 is Violated as is Proven in Appendix D Here
in, is the Judge Guilty of "Fraud Upon The Court"?
21. Once a Judge Instructs the Clerk to Mail his Fraudulent Order
(See Lower Left Corner Of Appendix D Herein) is he "Guilty"
of Mail Fraud A Violation of 18 U.S.C. 1341, 1342?
22. Once a Judge Instructs the Clerk to Mail his Fraudulent Order
(See Lower Left Corner Of Appendix D Herein) is he "Guilty"
of Using Mail To Defraud A Violation of 18 U.S.C. 1341, 1342?
23. Once a Judge Instructs the Clerk to Mail his Fraudulent Order
(See Lower Left Corner Of Appendix I) Herein) is he "Guilty"
of Conspiracy To Commit Mail Fraud A Violation of 18 U.S.C.
371?

3

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW ................................................................
JURISDICTION ....................................................................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE .................................................
REASONS FOR GRANTING THE WRIT ..................................
CONCLUSION .......................................................................

,1
2
3
4-5
6-28
28

INDEX TO APPENDICES
APPENDIX A - Decision of the United States Court of Appeals,
denying Petitioner's Certificate of Appealability
(COA). Case No. 20-3890.
APPENDIX B - Decision of the United States District Court,denying Petitioner's Habeas Corpus Petition.
APPENDIX C - Decision of the United States Court of Appeals,
denying Petitioner's Motion for Re-Hearing in
Case No. 20-3890.
APPENDIX D - Forged and Fraudulent Order Created and Executed
by Trial Judge Norbert A. Nadel with No Authority
or Jurisdiction.
APPENDIX E - An Order giving Petitioner PostirRelease Control
on top of Life Sentence for which "Parole" is the
only thing Petitioner is Eligible for.
APPENDIX F - Volume I, Transcript of proceedings which are
signed.
APPENDIX G - Volume II, Transcript of proceedings:"-which .ate
Altered and Unsigned♦

TABLE OF AUTHORITIES CITED

CASES CITED IN
QUESTIONS PRESENTED - NONE
STATUTES AND RULES CITED IN
QUESTIONS PRESENTED
Crim.R. 11 ..........
Crim.R. 11 (C)(3)
O.R.C. 2945.06
O.R.C. 2967.28
2SLU.3.C. 47
O.R.C. 2921.52
O.R.C. 2921.51
O.R.C. 2921.13
O.R.C. 2913.31
O.R.C. 2913.47
O.R.C. 2923.01
18 U.S.C. 1341
18 U.S.C. 1342
18 U.S.C. 371
CASES CITED IN
STATEMENT OF THE CASE

PAGE

1
1
1
1
2
2
2
2
2
2
2
3
3
3

NONE

STATUTES AND RULES CITED IN
STATEMENT OF THE CASE
O.R.C. 2945.06
O.R.C. 2967.28
Crim.R. 11(C)(3)
Crim.R. 11(C)(2)
Crim.R. 11(C)(2)(a)
Crim.R. 11(C)(2)(b)

4
4
4
4
4
4

CASES CITED IN
REASONS FOR GRANTING THE PETITION
Turney v. Ohio, 273 U.S. 510 (1927)

6

TABLE OF AUTHORITIES CONT.
CASES CITED IN

PAGE

REASONS FOR GRANTING THE PETITION
Re Murchinson 349 U.S. 136 (1955)
Ward v. Village of Monroeville, 409 U.S. 57 (1972)
Bracy v. Gramley, 520 U.S. 899 (1997)

6
6
6

Withrow v. Larkin, 421 U.S. 35, 47, S.Ct. 1456, 43

7,8,9,

L.Ed. 2d 712 (1975)
Forrester v. White, 484 U.S. @ 227-229 (1998)

10,23
7

Stump v. Sparkman, 435 U.S. @ 360 (1978)

7

Bradley v. Fischer, 13 wall. @ 351 (1872)
Ireland v. Tunis, 113 F.3d 1435, 1997 Fed. App.
0156 (1997)
McCarthy v. United States, 394 U.S. 459, 89 S.Ct.

7
7
13,14

1166, 22 L.Ed. 2d 418 (1969)
State v. Parker, 95 Ohio St. 3d 524, 2002-0hio-2833,
769 N.E. 2d 846 (2002)

17

State v. Clark, 119 Ohio St. 3d 239 (2008)

20.21.23

State v. Hendrix, 2013-0hio-4978
State v. McCuen, 2005-0hio-3346
State v. Jordan, 104 Ohio St. 3d 21, 2004-0hio-6085

20.23
20
21

(2004)
State v. Bezak, 2007-0hio-3250, 114 Ohio St. 3d
94, syllabus
State v. Beasley, 14 Ohio St. 3d 74, 75 (1984)
State v. Raglin, 83 Ohio St. 3d 253, 262 (1998)
Boykin v. Alabama, 395 U.S. 238 (1969)
Schneider v. Kreiner, 83 Ohio St. 3d 203, 208, 699
N.E. 2d 83 (1998)
Ogle {3 H8, State v. Hall, 2003-0hio-6939
State v. Williams, 148 Ohio St. 3d 403, 2016-Ohio7658, 71 N.E. 3d 234, 1120, quoting State v. Beasley,

21
21,22
21
21
21
21
22

14 Ohio St. 3d 74, 75, 471 N.E. 2d 774 (1984)
Colegrove v. Burns, 175 Ohio St. 437, 438, 195 N.E.

22

2d 811 (1964)
State v. Fischer 128 Ohio St. 3d 92, 2010-0hio-6238,
942 N.E. 2d 332, 21-22.

22

TABLE OF AUTHORITIES CONT.

STATUTES AND RULES CITED IN
REASONS FOR GRANTING THE PETITION
Crim.R. 11
Crira.R. 11(C)(3)
Crim.R. 11(C)(2)
Crim.R. 11(C)(2)(a)
Crim.R. 11(C)(2)(b)
Crim.P. 11(C)(3)
Crim.R. 11(C)
O.R.C. 2945.06
O.R.C. 2967.28
O.R.C. 2903.01 (A)
28 U.S.C. 47
18 U.S.C. 1341

PAGE
6.7.12.14,
15,16,27
6.7.14.15,
16,19
12
13,14,23
14
17,18
18,23
6,7,10,11,
12,17,18,19
6,7,19,20
10,11
8,24
25

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix B
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
—; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
|X] For cases from federal courts:
The date on which the United States Court of Appeals decided mv case
was H/19/20____________ .
[ ] No petition for rehearing was timely filed in my case.
DO A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:_2/2/21
_____
, and a copy of the
order denying rehearing appears at Appendix___ C
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

19
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1* First Amendment: Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the press;
or the right of the people peaceably to assemble, and to peti­
tion the Goverment for a redress of grievances.
2. Fifth Amendment: No person shall be held to answer for a
capital, or otherwise infamous crime, unless on a present­
ment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in ac­
tual service in time of War or public danger; nor shall any
person be subject for the same offense to be twice put in
jeopardy of life or limb; nor shall be compelled in any crimi­
nal case to be a witness against himself, nor be deprived of
life, liberty, or property, without the Due Process of law;
nor shall private property be taken for public use, without
just compensation.
3. Fourteenth Amendment; All persons born or naturalized in the
United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, or
liberty, or property, without Due Process of law; nor deny to
any person within its jurisdiction the equal protection of
the laws.

3

STATEMENT OF THE CASE
[til] On 7/21/13 Petitioner was charged with Aggravated Murder and
a Firearm Specification under Case No. C/13/CRA/19928, Com­
mon Pleas Case No. B1304393.
[112] On 1/23/14 Petitioner was sentenced to Life Imprisonment
with Parole eligibility after Twenty (20) years and Three
(3) years on the Firearm Specification.
[113] Over the years from 2013 to Current Petitioner has been
Diligently pursuing his case and the Multiple Valid Issues
to get Justice.
[114] In 2016 Petitioner filed his Habeas Corpus Petition in the
District Court which was assigned Case No. 1:16-cv-1005.
[115] In the properly filed Habeas Corpus Petition that was filed
in 2016 by Petitioner, some of the issues Raised and Not
adjudicated included but Not limited to: A Void Sentence and
Conviction Due to the Violation of R.C. 2945.06 and Crim.R.
11(C)(3) pertaining to the Three-Judge Panel Required in a
Aggravated Murder Case; The Imposition of Post-Release Con­
trol (PRC) on top of a Life Sentence (See Appendix E Herein)
(A Clear Violation Of R.C. 2967.28) for Aggravated Murder,
for which Parole is the only thing Petitioner is eligible;
The Violation of Crim.R. 11(C)(2); Two (2) parts of Crim.R.
11(C)(2)(a); Crim.R. 11(C)(2)(b); Two (2) parts of Crim.R.
11(C)(3) for Aggravated Murder; and "Structural Error" con­
sisting of Bias, Partiality and Corruption committed by
Trial Judge Norbert A. Nadel and supported by the Evidence
labeled Appendix D^ Herein and the Record.
[116] In July 2020 after almost Four (4) years, the District Court
Denies Petitioner the relief to which he is Entitled per­
taining to the issues presented in paragraph [115] above that
they never addressed in Habeas Corpus Petition, Case No.
1:16-cv-1005.
4

“

[117] In August 2020, in the United States Court of Appeals for
the Sixth Circuit Petitioner filed for a Certificate of
Appealability to address the Injustices and more that are
mentioned in paragraph [115] herein and that were brought
up in Habeas Corpus Petition, Case No. 1:16-cv-i005. The
Case No. assigned to the Certificate of Appealability by
the United States Court of Appeals for the Sixth Circuit
is 20-3890.
[118] In November 2020, the United States Court of Appeals for
the Sixth Circuit, Denied Petitioner his Certificate of
Appealability without addressing any of the crucial is­
sues mentioned in paragraph [115] herein. They chose some
lesser issues to try and justify their denial of the pro­
perly filed Certificate of Appealability by Petitioner.
[U9] In December 2020, Petitioner Diligently filed a Motion for
a Re-Hearing to the United States Court of Appeals for the
Sixth Circuit, Case No. 20-3890, for their failure to ad­
dress the issues mentioned in paragraph [H5] herein, which
were brought up in Habeas Corpus Petition, Case No. l:16-cv1005.
[1110] On Febuary 2, 2021, the United States Court of Appeals for
Sixth Circuit, Case No. 20-3890, Denied Petitioner's re­
quest for a Re-Hearing which now sets the stage for this
properly filed Writ of Certiorari before this Honorable
Court.

5

REASONS FOR GRANTING THE PETITION
[l] The Right of an accused to be presided over by a Fair and
Impartial Judge is a Basic Right of Due Process and Equal
Protection under the Fifth and Fourteenth Amendments of the
United. States Constitution. See Turney v. Ohio 273 U.S. 510
(1927); In Re Murchinson 349 U.S. 136 (1955); Ward v. Village of Monroeville, 409 U.S. 57 (1972)
[2] "[T]he Due Process Clause clearly requires a Fair Trial in a
Fair Tribunal before a Judge with No Actual Bias against the
Defendant or interest in the outcome of his particular case."
(Appendix D_ Herein, by Trial Judge Norbert A. Nadel, Proves
otherwise.) See Bracy v. Gramley, 520 U.S. 899 (1997); Turney
v. Ohio

273 U.S. 510 (1927)

[3] Fairness for purposes of the Due Process Guarantee "Requires
the Absence of Actual Bias in the trial of cases" and "A sys­
tem of Law [that] endeavor[s] to prevent even the probability
of unfairness." See In Re Murchinson 349 U.S. 133 (1955)
[4] This Honorable Court (along with Petitioner) would think that
the above statements would apply to Compliance with Crim.R.11%
especially Crim.R. 11(C)(3) for Aggravated Murder and its re­
quired provisions Before and After the Court accepts Any Plea
in a Capital Offense of Aggravated Murder as required.
[5] Also this Honorable Court (along with Petitioner) would think
that the above statements in [l],[2], and [3] would apply to
Compliance with R.C. 2945.06 Requiring a Three- Judge Panel
in a Aggravated Murder Case and the Violation of R.C. 2967.28
of Imposing Post-Release Control (PRC) in a Aggravated Murder
case for which Petitioner is only eligible fpr Parole. (See
Appendix E Herein)
[6] Before moving forward, it is important to Stress that the
Questions presented to this Honorable Court in the section

6

"Questions Presented" is of Great National Importance. Also
the Evidence and Statements that are being presented to this
Honorable Court in this section, "Reasons For Granting This
Petition," are of Great National Importance.;
[7] To. Establish for this Honorable Court why all of the Viola­
tions mentioned in "Questions Presented" and herein "Reasons
For Granting This Petition," took place, let's look at the
Criminal Mindset and Criminal Behavior of Trial Judge Norbert
A. Nadel and Appendix D Herein.
[8] Appendix D Herein is far from being some harmless piece of
paper. The significance of Appendix D Herein is Huge and the
Criminal Mindset and Behavior of Trial Judge Norbert A. Nadel;
in Impersonating an Appellate Judge or that class of Judges
is a Crime and explains why Crim.R. 11, especially Crim.R. 11
(C)(3) for Aggravated Murder, R.C. 2945.06 for Aggravated Murder R.C. 2967.28 for Aggravated Murder wasn’t adhered to in
Petitioner's "Original" Proceedings.
[9] Appendix D Herein was Created and Executed Months (Not Days
or Weeks) after Petitioner's "Original" Proceedings. For a
Judge to Lie In Wait for Months to Create and Execute Appen­
dix D Herein Proves Petitioner was Tried in his "Original"
Proceedings and Beyond by a Biased Decision Maker; See Withrow v. Larkin, 421 U.S. 33, 47, S.Ct. 1456, 43 L.Ed.2d 712
(1975) ("That a "Biased" Decision Maker is Constitutionally
Unacceptable.")
[10] It Doesn't matter in what part of Petitioner's case the
Bias, Partiality, and Corruption in Appendix 13 Herein took
place, the Whole case is Tainted making the Sentence and
Conviction Void.
[11] Nowhwere is it Stated that a Trial Judge or any other Judge
has the Authority to Impersonate another level of court and
Create and Execute Fraudulent Orders / Documents as Trial

7

Judge Norbert A. Nadel, did in Appendix I) Herein.
[12] However, what is stated in Federal Statute 28 U.S.C. 47 is
that "No Judge (Emphasis Added) shall hear or determine an
appeal from the decision of a case or issue tried by him."
But what makes it worse as well as Criminal / Felonious is
that Trial Judge Norbert A. Nadel, after Knowingly and Will­
fully Violating / Ignoring Federal Statute 28 U.S.C. 47,
decides to Impersonate another level of Court and Judge and
Create and Execute Fraudulent Orders as was Proven in Ap­
pendix D Herein. This Trial Judge is Not Above The Law and
has No_ Immunity from this. Especially from the Crimes and
Violations listed in "Questions Presented," Questions 12
thru 23.
[13] This Honorable Court has stated and Appendix D Herein Sup­
ports and Proves it, that Judicial Immunity is Overcome in
Two (2) sets of circumstances, First, a Judge is Not Im­
mune from Liability for non-judicial actions. See Forester
v. White, 484 U.S. 227-229, Stump v. Sparkman, 435 U.S. @
360. Second, a Judge is Not Immune for actions, though ju­
dicial in nature, taken in the complete absence of all
jurisdiction. See Bradley v. Fischer, 13 Wall @ 351. It is
also well stated in the Courts that a Judge Loses his Im­
munity when the Act is done in the "Clear Absence Of All
Jurisdiction," for judicial immunity purposes, if the mat­
ter upon which the Judge acts is clearly outside of the
Court over which the Judge presides. (Which Appendix D
Herein is) See Ireland v. Tunis 113 F.3d 1435, 1997 Fed.
App. 0156p (1997)
[14] What Judge Norbert A. Nadel, done Willfully and Knowingly
is both Criminal and Prosecutable as Appendix D Herein
proves. This Criminal Behavior Proves that Petitioner was
Tried by a "Biased Decision Maker; See Withrow v. Larkin,
421 U.S. 35, 47 S.Ct. 1456, 43 L.Ed. 2d 712 (1975) "That
a "Biased" Decision Maker is Constitutionally Unacceptable."

8

[15] This Criminal Behavior that Appendix D Herein Proves took
place was Ignored by Both the District Court in Habeas
Corpus Petition Case No. 1:16-cv-1005 and by the Sixth
Circuit Court of Appeals in Case No. 20-3890 which was
Petitioner's Certificate Of Appealability (COA) and ReHearing. This Corruption was presented to both Courts. By
Covering these Crimes and Violations up that was committed
by Trial Judge Norbert A. Nadel, the District Court along
with the Sixth Circuit Court of Appeals made themselves
Complicit to these Crimes, Violations and Behavior.
[16] Petitioner has Proven to this Honorable Court and to the
Courts below with Appendix D Herein that he is Entitled
to a New Trial Due to the Bias, Partiality, and Corruption
that Trial Judge Norbert A. Nadel, Proved on his Own that
he had against Petitioner. As this Honorable Court has
stated in Withrow v. Larkin, 421 U.S. 35, 47, S.Ct. 1456,
43 L.Ed. 2d 712 (1975) ("That A "Biased" Decision Maker Is
Constitutionally Unacceptable.") Petitioner hopes that this
Honorable Court stands by this.
[17] So this Honorable Court Understands, the Appeal mentioned
within Appendix D Herein is not being Litigated / Argued.
What has already been Proven and is being presented Herein
is that 1) Petitioner was tried by a Bias, Partial, and
Corrupt Judge and is Entitled to a New Trial; 2) The Crimes
and Violations committed by this Judge are Prosecutable;
and 3) The District Court and the Sixth Circuit Court of
Appeals Blatant Abuse of Discretion and Legal Process in
Not addressing these Crimes and Violations that were right
in front of them in Appendix D Herein that were committed
by Trial Judge Norbert A. Nadel, and Granting Petitioner
his Entitled Relief in the form of a New Trial.
[18] Petitioner has Multiple Documents with Judge Norbert A.
Nadel*s Handwriting and Signitures on them and they all
match the Handwriting and Signiture of the Forged / Fraudz
ulent Appendix D Herein.

9

[19] The Criminal Mindset and Behavior that went into the Cre­
ation and Execution of Appendix D Herein by Trial Judge
Norbert A. Nadel, Proves / Supports why the following, after
[19] herein, Violations that were presented herein "Ques­
tions Presented" were not followed, all to the Prejudice of
Petitioner and why this Honorable Court should Grant this
Writ of Certiorari and the Belief, which is a New Trial in
the interest of Justice. "A "Biased" Decision Maker Is Con­
stitutionally Unacceptable." See Withrow v. Larlin, 421 U.S.
35, 47, S.Ct. 1456, 43 L.Ed. 2d 712 (1975)
[20] Petitioner was charged with Aggravated Murder under R.C.2903.01 with Specification (A) which states, (No person
shall purposely, and with Prior Calculation and Design,
cause the death of another or the unlawful termination of
anothers pregnancy) and a Firearm Specification when No
Firearm was ever recovered or Proven to be used by Peti­
tioner. Petitioner has Sworn Affidavits that state All of
Petitioner’s Firearms were Cleared and not used in this
Crime. Also what the Lower State Courts have Lied about
and continue to withold, is that

the Gunshell that

was

found at the Crime Scene was Not Fired / Shot from any of
Petitioner's Firearms / Guns and the Gunshell from the
Crime Scene Does Not Have Petitioner’s DNA / Fingerprints
on it. But the lower courts through their Trickery Refuse
to turn this crucial evidence over to Petitioner to Prove
his Innocence.
[21] Both of these Specifications mentioned above in [20],
Petitioner was told by Both Court appointed Public De­
fenders, Daniel Burke Jr. and Frank Osborne, made him
Eligible for the Death Penalty.
[22] Violated R.C. 2945.06: Jurisdiction of Judge when Jury
Trial is Waived; Three-Judge Court. The language in R.C.
2945.06 is very clear and to the point. It does not say if
you feel like following it. It does not say to add things or

10

try to Re-Translate it from the way that it is printed.
R.C. 2945.06 Specifically States: "If The Accused Pleads
Guilty Of Aggravated Murder, A Court Composed Of ThreeJudges Shall Examine The Witnesses, Determine Whether The
Accused Is Guilty Of Aggravated Murder Or Any Other Offense
And Pronounce Sentence Accordingly.” This Applies To Peti­
tioner Herein.
[23] There is Not One Mention at all in R.C. 2945.06 or its
history that states the Petitioner had to be given the
Death Penalty or that Specifications had to apply, Nowhere at all is it mentioned. However Both Public Defenders Daniel Burke Jr. and Frank Osborne, told Peti­
tioner that Both of them were assigned to him because
his Aggravated Murder Case was a Capital Offense and
that Specification (A) that was given with R.C. 2903.01
and his Firearm Specification made him Eligible for the
Death Penalty.
[24] Petitioner is Entitled to a: New:-Trial. The only reason
Petitioner changed his Plea from "Not Guilty" to "Guilty"
is because he was threatened with the Death Penalty. Trial
Judge Norbert A. Nadel knew Petitioner was Entitled to the
Three-Judge Panel but because of his Bias, Partiality, and
Corrupt Behavior toward Petitioner that Appendix D Herein
Proves Existed, Trial Judge Norbert A. Nadel, Ignored R.C.
2945.06 all to the prejudice of Petitioner.
[25] If this Honorable Court reviews Petitioner's Habeas Corpus
Petition, Case No. 1:16-CV-1005 and his Certificate of
Appealability (C0A) and his Re-Hearing in Case No. 20-3890,
This Honorable Court will see that this Crucial issue was
brought to Both Courts attention and not adjudicated be­
cause it was violated by. Trial Judge Norbert A. Nadel, and
supported with Appendix D Herein.

11

[26] The language as it is written by the Legislators in R.C.
2945.06 is Unambiguous and should not be allowed to be
Manipulated by the Lower Courts. This is of Great National
Interest and effects Thousands.
[27] Violated^Multiple Parts of Crim.R. 11 which Violates the
Petitioner's Due Process and Equal Protection Rights under
the Fifth and Fourteenth Amendments of the United States
Constitution. What seems to Elude the Lower Courts and is
of Great National Interest, is what Crim.R. 11 states at the
very beginning, which is, Pleas, Rights (Emphasis Added) Upon Plea. This is very clear and unambiguous. Below is all
of Crim.R. 11 Violations committed by Trial Judge Norbert A.
Nadel, against Petitioner and his Due Process and Equal Pro­
tection Rights.
The First part of Crim.R. 11 that was violated by Trial
Judge Norbert A. Nadel, all to the prejudice of Petitioner,
is Crim.R. 11 (C)(2) which states "That the court Shall Not
accept a plea of Guilty or no contest without first address­
ing the defendant personally and doing all of the following"
Judge Norbert A. Nadel instead states to the Petitioner "I
understand that your changing your plea from "Not Guilty" to
"Guilty" and proceeds on. Supported by the deficient and al­
tered Transcripts provide : to'"-thisvHonorable Court in Appen­
dix F and Appendix G at any time does Judge Norbert A. Nadel
tell the Petitioner that Before He Can Accept Petitioner's
"Guilty" Plea he must do the following. This would have al­
lowed the Petitioner to change his plea back to "Not Guilty"
like he tried to and it was left out of the Sentencing Tran­
scripts labeled Appendix G Herein. Also the Sentencing Tran­
scripts are Unsigned■ This was no accident. Trial Judge
Norbert A. Nadel, didn't want anyone to know that Petitioner
wanted to withdraw his "Guilty" Plea. The Court Reporter
obviously didn't want any part of this and that is why the
Sentencing Transcripts labeled Appendix G Herein were not
signed. This behavior is Proven by the Bias Partiality and
12

Corrupt Activity that was committed by Judge Norbert A.
Nadel, in Appendix D Herein this filing.
The Second part of Crim.R. 11 that was violated by Trial
Judge Norbert A. Nadel, all to the prejudice of Petitioner,
is Crim.R. 11 (C)(2)(a) which states "With understanding of
the Nature of the Charges" If this Honorable Court looks at
the Deficient Transcripts on record and that has been pro­
vided as Appendix F and Appendix G Herein, this Honorable
Court will see that there is Not one single attempt made by
Trial Judge Norbert A. Nadel, to Explain As Required the
Nature of the Charges and Specifications against Petitioner.
This is totally unacceptable. This Honorable Court stated in
McCarthy v. United States, 394 U.S. 459, 89 S.Ct. 1166, 22
L.Ed. 2d 418 (1969) (... Addressing the defendant as to his
understanding of the essential elements of the charges to
which he pleads guilty would seem a necessary prerequisite
to a determination that he understands the meaning (Empha­
sis Added) of the charge...). This couldn't be more crucial
in an a Aggravated Murder Case which is a Capital Offense.
If the Court speaks through its Journal Entry / Transcripts
of the proceedings, Petitioner's is Silent.
Also clearly stated by this Honorable Court in McCarthy v.
United States, 394 U.S. 459, 89 S.Ct. 1166 22 L.Ed. 2d 418
(1969) :
HNl A Defendant is Entitled to Plead Anew if the court ac­
cepts his Guilty Plea without Fully adhering to the pro­
cedure provided in Fed.R.Crim.P. 11 by personally inquiring
whether Defendant Understood the Nature of the Charges
against him. A Silent Journal Entry / Transcript Doesn't

Lie.
HN3 If a Defendant's Guilty Plea is not equally Voluntary
and Knowing, it has been obtained in violation of Due Process and is therefore Void. Moreover, because a Guilty Plea
is an admission of all elements of a formal criminal charge

13

it cannot be truly Voluntary unless the Defendant posses­
ses an understanding of the Law.
The Third part of Crim.R. 11 that was violated by Trial
Judge Norbert A. Nadel, all to the prejudice of Petitioner,
is another part of Crim.R. 11(C)(2)(a) which states "That
the Defendant is not eligible for probation or for the im­
position of community control sanctions at the sentencing
hearing." If this Honorable Court looks at Appendix G Here­
in which is the Sentencing Transcript of Petitioner, it will
see that this did not take place.
Petitioner's sentence is Void because Trial Judge Norbert A
Nadel, had a Duty to state on Record this important informa­
tion. Trial Judge Norbert A. Nadel, by Carelessness and De­
sign handed Petitioner in open court a signed order giving
him Five-Years of Post-Release Control (PRC) on top of a
Life Sentence for which Parole is the only thing Petitioner
is Eligible for. When Petitioner asked for this to be ex­
plained by Trial Judge Norbert A. Nadel, Petitioner was told
No.-See Appendix E Herein.
The Fourth part of Crim.R. 11 that was violated by Trial
Judge Norbert A. Nadel, all to the prejudice of Petitioner,
is Crim.R. 11 (C)(2)(b) which states "Understands the effect
of the plea of guilty" There is no way that Petitioner under
stood this when No_ attempt was made by Judge Norbert A.
Nadel, as required, to explain the "Nature of the Charges"
to which the guilty plea was made. McCarthy v. United States,
394 U.S. 459, 89 S.Ct. 1166, 22 L.Ed. 2d 418 (1969)
The Fifth part of Crim.R. 11 that was violated by Trial
Judge Norbert A. Nadel, all to the the prejudice of Peti­
tioner, is Crim.R. 11 (C)(3) which states "With respect to
Aggravated Murder committed on and after January 1 1974,
the defendant shall plead Seperately to the Charge and to
Each specification, if any."

14

If this Honorable Court reviews the Deficient and Altered
Transcripts labeled Appendix F and Appendix G Herein of the
proceedings, you will see this didn't take place all to the
prejudice of Petitioner. A Silent Record / Transcript that
is Unsigned (See Appendix G Herein) says a lot. Especially
if the Court speaks through the Record / Transcript. This
is Crucial and a Clear Violation of Petitioner's Due Pro­
cess and Equal Protection Rights under the Fifth and Fourteenth Amendments of the United States Constitution.
This supports that Petitioner's "Guilty" Plea was not made
Knowingly, Voluntarily, or Intelligently. Proven by the Re­
cord and by the Colerain Township Police Department, All of
Petitioner's Firearms / Guns, including Petitioner's .32
Caliber Keltec was Cleared through Ballistics Testing. Also
.32 Caliber Gunshell found at the crime scene did Not have
the Petitioner's DNA / Fingerprints on it.
So why would the Petitioner plead to a Firearm / Gun Speci­
fication when no Firearm / Gun was ever recovered or proven
to be used by Petitioner. The State has No_ Firearm / Gun in
Evidence and the Gunshell collected does Not have the Peti­
tioner's DNA / Fingerprints on it. Trial Judge Norbert A.
Nadel knew this, that is why he didn't want or let Petition­
er plead Seperately to the Charge and Specification as ReQuired, because he knew Petitioner wouldn't of Plead to
teither. A Silent Record does Not Lie and the State Courts
cannot argue that:the-Trial Judge complied when the Record /
Transcripts prove otherwise.
The Sixth part of Crim.R. 11 that was violated by Trial
Judge Norbert A. Nadel, all to the prejudice of Petitioner,
is another crucial part of Crim.R. 11(C)(3) which states "If
the Pleas of Guilty or no contest to Both the Charge and One
or more Specification are Accepted, A Court Composed Of
Three Judges Shall." Petitioner was Entitled to have his
Case Heard and Decided by a Three-Judge Panel. This is a
15

Due Process Violation under the Fifth and Fourteenth Amend­
ments of the United States Constitution.
If this Honorable Court reads All of Crim.R. 11 slowly and
carefully, it will see that there isn't One Sentence or Para
graph that states the Petitioner had to be given the Death
Penalty in order to have a Three-Judge Panel hear and decide
his case. There is no reference whatsoever. However, what
Crim.R. 11(C)(3) Specifically states, is that once Trial
Judge Norbert A. Nadel Accepted a Plea of Guilty to the
Charge of Aggravated Murder and One Specification, a ThreeJudge Panel should have Heard and Decided Petitioner's Case.
But to the prejudice of Petitioner this crucial process
didn't take place. The Bias, Partiality, and Corruption that
Appendix D Herein Proves existed in Petitioner's Case is why
the Three-Judge Panel Requirement was Not followed by Trial
Judge Norbert A. Nadel.
Also this Honorable Court will see that there isn't One Sen tence or Paragraph in Crim.R. 11 Crim.R. 11(C)(3) or the
Crim.R. 11 Archive's, that state the Specifications have to
be Death Penalty Specifications. Nowhere. Even though the
Two Court Appointed public defenders, told Petitioner, that
Specification (A) that was given with R.C. 2903.01 for Ag­
gravated Murder and the Firearm Specification were and made
the Petitioner eligible for the Death Penalty.
[28] To help the State in their confusion and their Non- Comliance of Crim.R. 11, the Supreme Court of Ohio in State v.
Parker, 95 Ohio St. 3d 524, 2002-Ohio-2833, 769 N.E. 2d 846,
which was a Aggravated Murder Case and dealt with the issue
of the Three-Judge Panel, held "That a single Trial Judge
"Lacked" jurisdiction to Accept a Defendant's Plea in a
Capital Case and that Defendant could Not waive the right
to a Trial by a Three-Judge Panel."
The Supreme Court of Ohio, goes on to state that Aggravated
16

Murder regardless of if it has Specifications or no Speci­
fications, is still a Capital Case and Petitioner was En­
titled to have his Case Heard and Decided by a Three-Judge
Panel. This applies to the Petitioner Herein.
The Supreme Court of Ohio also stated in State v. Parker,
95 Ohio St. 3d 524 2002-0hio-2833, 769 N-E. 2d 846, that
Regardless of the State's agreement not to seek the Death
Penalty, Defendant (Along with Petitioner Daniel Littlepage)
was still charged with a Capital Offense and was Entitled to
have his case Heard and Decided by a Three-Judge Panel After
he Waived a Jury Trial. This applies to the Petitioner Here­
in .
In State v. Parker, 95 Ohio St. 3d 524, 2002-0hio-2833, 769
N.E. 2d 846, the following crucial Headnotes were included
by the Supreme Court of Ohio:
HN3 Ohio Rev. Code Ann. § 2945.06 and Ohio R. Crim.P.//(C) (3)
Clearly establish that, in a Capital Case where a crimi­
nal Defendant has Waived the Right to Trial by Jury, a
Three-Judge Panel Is Required. (It doesn't say that the
Death Penalty has to be in place and it doesn't say that
the Specification / Specifications have to be Death Pen­
alty Specifications). HN3 Applies to Petitioner Herein.
HN5 When a Defendant pleads Guilty to Aggravated Murder in a
Capital Case, a Three-Judge Panel is Required. This Ap­
plies to Petitioner Herein.
HN6 The Supreme Court of Ohio has consistently required
Strict compliance with Ohio Statutes wbgn reviewing
the procedures in Capital Cases. (Even though the lower
State Courts never followed their own statements) This
Clearly didn't happen in Petitioner's Case.
HN7 A Defendant charged with a crime punishable by Death who
has waived his right to trial by jury must, pursuant to
17

Ohio Rev. Code Ann. § 2945.06 and Ohio R. Crim.P. 11
(C)(3), have his case Heard and Decided by a ThreeJudge Panel even if the State agrees that It will not
seek the Death Penalty. This applies to Petitioner.
HN8 The Three-Judge Panel requirement of Ohio Rev. Code
Ann. § 2945.06 for Capital Offenses is a jurisdictional
matter that cannot be waived.
[29] The Supreme Court of Ohio has stated that if Crim.R. 11(C)
was not properly followed (Which a review of the altered and
deficient Transcripts labeled Appendix F and Appendix G Here
in prove it wasn't) during the Plea process, it Vacates the
Plea and the Conviction or Remands the case to the Trial
Court with an order to allow the Defendant to Vacate the
Plea. This is what Petitioner is Entitled to and requesting
that this Honorable Court Grant.
[30] As Proven and Supported by the Altered, Deficient and Silent
Transcripts of the proceedings on record labeled Appendix F
and Appendix G Herein, Trial Judge Norbert A. Nadel by Care­
lessness and Design, Violated Petitioner's Due Process and
Equal Protection Rights under the Fifth and Fourteenth Amend
ments of the United States Constitution by not following
Crim.R. 11(C) as required during the Plea Process. This was
no accident by Trial Judge Norbert A. Nadel and the Bias,
Partiality, and Corruption that took place in the Creation
and Execution of Appendix D Herein Proves and Supports this.
[31] The State Courts should Not be allowed to Manipulate Revised
Codes, Statutes and Court Rules to their benefit and to the
Cost of Any petitioner. The State Courts have a real bad Hab­
it of Adding wording, retranslating, and taking things out
of Revised Codes, Statutes, and Court Rules to fit their
Trickery.
[32] As to the case before this Honorable Court, the language as
it is written, is Unambiguous and needs to stay that way and
18

needs to be followed in R.C. 2945.06 and Crim.R. 11, Es­
pecially Crim.R. 11(C)(3) for Aggravated Murder.
[33] Nowhere is it stated that R.C. 2945.06 and Crim.R. 11(C)(3),
which are both about the Three-Judge Panel in a Aggravated
Murder case, does it say that the Petitioner had to be given
the Death Penalty in order to be eligible under R.C. 2945.06
and Crim.R. 11(C)(3) for the Three-Judge Panel to Hear and
Decide his case. Nowhere.
[34] Nowhere, within the Unambiguous language of R.C. 2945.06 is
there a Sentence or Paragraph that states that Petitioner
had to be given the Death Penalty in order to get the ThreeJudge Panel. It Specifically states "If The Accused Pleads
Guilty Of Aggravated Murder, A Court Composed Of Three
Judges shall examine the witnesses, determine whether the
accused is guilty of aggravated murder or any other offense,
and pronounce sentence accordingly." It is the Prayer of
Petitioner that this Honorable Court Remands this back to
the Trial Court with an Order to allow Petitioner to With­
draw His Guilty Plea and Proceed with a New Trial in the
Interest of Justice.
[35] Nowhere, within the Unambiguous language of Crim.R. 11(C)(3)
is.there a Sentence or Paragraph that states that Petitioner
had to be given the Death Penalty in order to get the ThreeJudge Panel. It Specifically states "If the Pleas of Guilty
or no contest to both the Charge and One or more Specifi­
cation are accepted, A Court Composed Of Three Judges Shall"
do the following. Again, this applies to Aggravated Murder.
It is the Prayer of Petitioner that this Honorable Court
Remands this back to the Trial Court with an Order to allow
Petitioner to Withdraw His Guilty Plea and Proceed with a
New Trial in the Interest of Justice.
[36] Violated R.C. 2967.28: Petitioner has a Void Sentence do to
therimposition:of"P©sirelease-Control (PRC) on top of a Life

19

Sentence for which Parole is the only Eligibility for the
Petitioner.
An individual sentenced for Aggravated Murder is Not sub­
ject to Postrelease Control (PRC) because that crime is an
Unclassified Felony / Special Felony to which the Postre­
lease Control (PRC) Statute does Not apply. R.C. 2967.28.
Instead, such a person is either ineligible for Parole or
becomes eligible for Parole after serving 20, 25, or 30
years in prison.
A Sentence for Aggravted Murder that includes Postrelease
Control (PRC) (See Appendix E Herein) is "Void" because
Postrelease Control (PRC) does Not attach to sentences for
the offense. R.C. 2967.28, Postrelease Control (PRC) at­
taches Only to First, Second, Third, Fourth, and Fifth De­
gree Felonies. So when a Trial Court Judge, Norbert A. Nadel
handed Petitioner Appendix E Herein in open court and re­
fused to explain it to Petitioner like Petitioner ask the
Judge to, Trial Judge Norbert A. Nadel made "Void" any
Sentence he imposed. See State v. Clark, 119 Ohio St. 3d
239 (2008); State v. Hendrix, 2013-0hio-4978; State v.
McCuen, 2005-Ohio-3346.
Parole is very different from Postrelease Control (PRC).
Parole for Aggravated Murder can last for Life. Postre­
lease Control (PRC) ends after Five Years and if violated
is only served in Nine Month Intervals.
Even on a theoretical level, a trial court that has handed
a Petitioner in open court an Order / Document, stating
that Petitioner has Five Years of Postrelease Control (PRC)
on top of his Life Sentence for which Parole is the only
thing Petitioner is eligible for, has not explained the
Maximum Sentence and the Sentence Imposed is Void. See
Appendix E Herein for the imposition of Postrelease Control
on top of a Life Sentence. This Entitles the Petitioner to
Withdraw his Guilty Plea and proceed with a New Trial.
20

[37] As the Supreme Court of Ohio has Explained, an Illegal Sen­
tence is a Nullity. See State v. Jordan, 104 Ohio St. 3d 21,
2004-0hio-6085, at 1123-27; State v. Bezak, 2007-0hio-3250,
114 Ohio St. 3d 94, syllabus, State v. Beasley, 14 Ohio St.
3d 74, 75 (1984).
[38] A Guilty Plea is Valid only if it is Knowing, Intelligent,
and Voluntary. See State v. Raglin, 83 Ohio St. 3d 253, 262
(1998); Boykin v. Alabama, 395 U.S. 238 (1969). "Failure on
any of those points renders a resulting Conviction Unconstitutional."
[39] Is a "Guilty" Plea Knowing, Intelligent, and Voluntary when
the Trial Court Misinforms the Petitioner that he will be
subject to Five Years of Postrelease Control (PRC) if Re­
leased when, in fact, Petitioner faces a Lifetime of Parole
and Re-Incarceration for Life for any Violation?
NO. A Plea is Not Knowing, Intelligent, or Voluntary when
the Trial Court Misinforms Petitioner that he will be sub­
ject to Five Years Postrelease Control (PRC) if released,
when in fact, Petitioner faces a Lifetime of Parole and ReIncarceration for Life for any Violation. See State v.
Clark, 119 Ohio St. 3d 239.
[40] A Manifest Injustice is a clear and openly unjust act; it
relates to a fundamental flaw in the proceedings resulting
in a Miscarriage of Justice or a Deprivation of Due Pro­
cess . See State Ex Rel. Schneider v. Kreiner, 83 Ohio St.
3d 203 208, 699 N.E. 2d 83 (1998); Ogle at 118 State v.
Hall, 2003-0hio-6939.
[41] Once Trial Judge Norbert A. Nadel handed Petitioner Appendix
E Herein and refused to explain it [40] above apllies to
Petitioner and this type of Bias, Partiality, and Corrupt­
ion is also Proven / Supported by Appendix D Herein.

21

[42] Nevertheless, the Supreme Court of Ohio has held that "[A]ny
attempt by a Court to disregard statutory requirements when
imposing a sentence renders the attempted sentence a Nullity
or Void." See State v. Williams, 148 Ohio St. 3d 403 2016Ohio-7658 71 N.E. 3d 234, 1120, Quoting State v. Beasley, 14
Ohio St. 3d 74, 75,. 471 N.E. 2d 774 (1984)
[43] This precept necessarily follows from the Trial Court's role
at sentencing, which is to impose a sentence provided for by
statute; M[A] Court has No Power to substitute a different
sentence for that provided by statute or one that is either
greater or lesser than that provided for by Law." Williams
at 1120, Quoting Colegrove v. Burns, 175 Ohio St. 437
195 N.E. 2d 811 (1964)

438,

[44] The Supreme Court of Ohio's Void-Sentence jurisprudence "Re­
flects a fundamental understanding of Constitutional Democ­
racy that the power to define criminal offenses and pre­
scribe punishment is vested in the Legislative branch of
Government and that courts may impose sentences Only as
provided by Statute." Williams at 1122, Quoting State v.
Fischer, 128 Ohio St. 3d 92, 2010-0hio-6238, 942 N.E. 2d
332, 21-22. "Because '[N]o court has the authority to impose
a sentence that is contrary to law,' * * * When the trial
court disregards statutory mandates, 1[Principles of Res
Judicata, including the Doctrine of the law of the case,
do Not preclude this Honorable Court's review.
[45] Asking a citizen to plead Guilty to Aggravated Murder is
serious. If a Petitioner does not know how the sentence
can end, the Petitioner does not understand the sentence.
Handing the Petitioner Appendix E Herein and refusing to
explain it is just Pathetic and Wrong. But it is consis­
tent with Trial Judge Norbert A. Nadel's Criminal Behavior
that Appendix D Herein Proves has Plagued Petitioner's
Whole Case and Entitles Petitioner to go back and withdraw
his Guilty Plea and proceed with a New Trial.

22

[46] The Supreme Court of Ohio stated the following in State v.
Hendrix, 2013-Ohio-4978 "Because the Trial Court failed to
comply with Crim.R. 11(C)(2)(a), Defendant's Guilty Plea
was Not Knowingly, Intelligently, and Voluntarily made, and
under the circumstances, Defendant did Not need to demon­
strate prejudice. The Supreme Court has suggested that Pre­
judice is presumed when a Trial Court fails to comply with
Crim.R. 11(C), State v. Clark, 119 Ohio St. 3d 239, 2008Ohio-3748, H32, 893 N.E. 2d 462. Here, the Trial Court Fail­
ed to tell Defendant, that he was Not Eligible for community
control as is Required by Crim.R. 11(C). Compounding the Is­
sue, the Trial Court inferred that Community Control was act­
ually available." This applies to the Petitioner Herein.
[47] It was an Abuse of Discretion by both the District Court in
Habeas Corpus Petition, Case No. l:16-cv-1005 and the Sixth
Circuit Court of Appeals in Certificate Of Appealability
(COA), andT.Motion for Re-Hearing Case No. 20-3890 to Ig­
nore and deny Petitioner the Entitled relief in the form
of a New Trial or to Withdraw his Guilty Plea. It is the
Prayer of the Petitioner that this Honorable Court will
Grant this in the interest of justice. See Withrow v. Larkin,
421 U.S. 35, 47, S.Ct. 1456, 43 L.Ed. 2d 712 (1975) (A "Bi­
ased" Decision Maker Is Constitutionally Unacceptable")
[48] It is strongly believed that since the Court of Common Pleas
(Which is where Trial Judge Norbert A. Nadel committed his
Crimes and Violations against Petitioner) The First District
Court of Appeals, The District Court, and the Sixth Circuit
Court of Appeals are all located within 1 to 3 blocks of one
another in Cincinnati, Ohio, These Judges who took an Oath
to be Unbias and Impartial felt the need to:Cover Up for
a Biased, Partial, and Corrupt Officer of the Court. But in
reality all they did is made themselves Complicit in Judge
Norbert A. Nadels Crimes and Violations that were commited
against Petitioner.

23

[49] What's telling and by their Silence, Proves / Supports that
Petitioner was tried by a Bias, Partial, and Corrupt Judge
(Trial Judge Norbert A. Nadel)and that Petitioner is Enti­
tled to a New Trial, is that Not One Level of Court from the
Trial Court all the to the Sixth Circuit Court Of Appeals,
has Defended Trial Judge Norbert A. Nadel in.his Corrupt
Activity of Illegally Creating and Executing Appendix D Here
in.
[50] Not One level of“Court has Ever stated that 28 U. S.C. 47
Doesn't apply to Trial Judge Norbert A. Nadel when he Il­
legally Created and Executed Appendix D Herein.
[51] Not One level of Court has Ever stated that Trial Judge
Norbert A. Nadel Had Immunity when he Illegally Created
and Executed his Forged / Fraudulent Order in Appendix D
Herein.
[52] Not One level of Court has Ever stated that Trial Judge
Norbert A. Nadel Was Not Guilty of the Fifteen (15) Crimes
and Violations that he Willfully Committed during the Cre­
ation and Execution of Appendix D Herein, that includes, but
Not limited to, Using Sham Legal Process, Fraud, Forgery,
Impersonating, Falsification, Corrupt Activity, Obstructing
Justice, Identity Fraud, Dereliction of Duty, Tampering with
Evidence, Conspiracy, Complicity, Fraud Upon The Court, Mail
Fraud, Using The Mail To Defraud, and Conspiracy To Commit
Fraud.
[53] What's even worse is that the Sixth Circuit Court Of Appeals
after seeing and knowing that Appendix D Herein was a Forged
/ Fraudulent Order that was Created and Executed by a Bias,
Partial, and Corrupt Trial Judge, Deliberately Ignores the
Federal Offenses of Mail Fraud, Using Mail To Defraud and
Conspiracy To Commit Mail Fraud. Once Bias, Partial, and
Corrupt Trial Judge Norbert A. Nadel Wrote in the Lower Left
Corner of Appendix D Herein "Clerk to send copies to defend­
ant," these Federal Crimes were Committed.
24

[54] How does the Sixth Circuit Court Of Appeals Not Know what
the Elements of Mail Fraud is or what constitutes Mail
Fraud? The language is Unambiguous and is as follows:
r.It is stated, in order to Prove a Violation of the Federal
Mail Fraud Statute, 18.U.S.C. § 1341, it is necessary to
show the presence together of three elements:
(1) Defendant's (Trial Judge Norbert A. Nadel) Participation in
A Scheme or Artifice To Defraud;
(2) Use of the Mails caused by someone associated with the Scheme
and
(3) Use of the Mails for the purpose of Executing The Scheme.
[55] This fits and is exactly what Trial Judge Norbert A. Nadel
did and committed in and with Appendix D Herein. It's Shame­
ful , an Abuse of Discretion, and of Great National Interest
for the Sixth Circuit Court Of Appeals to Ignore the Proof
of Crimes / Violations committed by a Bias, Partial, and
Corrupt Judge and claim they saw nothing wrong when Appendix
D Herein Proves otherwise. To answer this, please return to
Page 18 Herein and re-read [48].
[56] it is of Great National Interest, and this Honorable Court
has to wonder, how many more Victims are there of Trial
Judge Norbert A. Nadel's Forged / Fraudulent Orders / Documents as Appendix D Herein Proves Exist. How many Victims
were given a Forged / Fraudulent Order / Document thinking
that they had nothing left to fight for in their case, not
realizing that the Order / Decision they received like
Appendix D Herein was Illegally Created and Executed by a
Bias, Partial and Corrupt Judge, who had No_ Authority or
Jurisdiction to issue it.
[57] It is of Great National Interest, and this Honorable Court
has to wonder, how many more Criminal Acts / Violations'has
the Sixth Circuit Court Of Appeals Covered Up / Ignored that
25

state judges, like Trial Judge Norbert A. Nadel committed.
A "Biased" Decision maker who Commits Crimes in the process
of Violating a Petitioner's Rights under the Fifth and Four­
teenth Amendments of the United States Constitution, is Not
Above The Law and can be Prosecuted. As this Honorable Court
knows, there were Numerous Crimes committed in the Creation
and Execution of Appendix D Herein.
[58] Lastly, throughout this properly filed Writ of Certiorari
the Petitioner has with good cause brought up about the
Transcripts of the proceedings labeled Appendix F and Ap­
pendix G Herein, being Deficient, Altered, and Unsigned
which Voids the Legality / Validity of the Sentence and Con­
viction Imposed on Petitioner by Trial Judge Norbert A.
Nadel and Entitles Petitioner to go back and Withdraw his
"Guilty" Plea and have a'.'.NeW'-Trial.
[59] Let's start with Appendix G Herein. Appendix G Herein is
Vol.II of the proceedings and includes the Sentencing Phase
of Petitioner's case. Before Trial Judge Norbert A. Nadel
Imposes Any Sentence, Petitioner states to Trial Judge Nor­
bert A. Nadel that he wants to Withdraw his "Guilty" Plea.
This is "Crucial" and is Removed from the Unsigned Tran­
script labled Appendix G Herein.
[60] Petitioner, under the Due Process and Equal Protection of
the Fifth and Fourteenth Amendments of the United States
Constitution had this Right and it was Denied to him.* This
Honorable Court after seeing the extent of Bias, Partiality,
and Ciminal Mindset of Trial Judge Norbert A. Nadel in the
- Creation and Execution of Appendix D Herein, has to agree
with Petitioner's statement that the Court Reporter / Tran­
scriber who was transcribing the proceedings in Appendix G
Herein, was Instructed by Trial Judge Norbert A. Nadel, to
Remove the part where Petitioner wanted to Withdraw his
"Guilty" Plea.

26

[61] The job of the Court Reporter / Transcriber is to put in
Print for the Record the events as they were taking place
during the proceedings. This is done so that when a De­
fendant / Petitioner files a Motion challenging His / Her
Sentence, Conviction, Crim.R. 11 Violations by the Court
and more, the Courts can refer back to the Transcripts of
the proceedings, also known as the Record or Journal Entry,
to see what was Followed, Not Followed, Said and Not Said,
so that any Miscarriages of Justice can be corrected.
[62] However, the only way what took place during the proceedings
has any Legality / Validity is if they are Signed by the
Certified Court Reporter / Transcriber.
[63] The Courts Require, and it's Not Optional, that:
1) Rulings / Decisions from the Court Must be Signed in
order to have Legality / Validity. No Exception.
2) Motions / Filings to the Court Must be Signed in order
to have Legality / Validity. No Exception.
3) Affidavits in Court Proceedings Must be Signed in order
to have Legality / Validity. No Exception.
4) The Transcripts of the proceedings by the Certified
Court Reporter / Transcriber Must be Signed in order
for Petitioner's Sentence and Conviction to have Any
Legality / Validity. No Exception.
[64] It wasn't No Accident that Appendix G Herein wasn't Signed
off on and Appendix F Herein was. You just don't forget to
Sign the Transcripts of the proceedings in a Aggravated
Murder Case, unless the Court Reporter / Transcriber was
Instructed to do something by the Trial Judge that they
didn't agree with, but did so Reluctantly. This Honorable
Court cannot disagree with this statement after seeing the

27

Bias, Partiality, and Corruption of Trial Judge Norbert A.
Nadel in the Creation and Execution of Appendix D Herein,
[65] It is the Prayer of Petitioner that this Honorable Court
agrees with the Facts and Evidence presented herein and
Grant, this Writ of Certiorari and the requested relief
which is a New Trial and any other relief as deemed by
the court.

CONCLUSION
Respectfully, the Writ of Certiorari should be Granted.
Respectfully submitted i
Wi

DANIEL LITTLEPAGE
A697296
P.0. BOX 5500
CHILLICOTHE, OHIO 45601
DATE:

June 11. 2021

28

